No. 20-6386
OCTOBER TERM, 2020
IN THE SUPREME COURT OF THE UNITED STATES
JAMES WALKER, Petitioner,
v.
WILLIAM GITTERE, et al., Respondent.
On Petition for Writ of Certiorari to the
Nevada Supreme Court

MOTION TO DELAY DISTRIBUTION OF A PETITION FOR WRIT
OF CERTIORARI
CAPITAL CASE
RENE L. VALLADARES
Federal Public Defender of Nevada
JOANNE L. DIAMOND*
MARTIN L. NOVILLO

*Counsel of Record

Assistant Federal Public Defender
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-5819 (Fax)
Joanne_Diamond@fd.org
Martin_Novillo@fd.org
Counsel for Petitioner

No. 20-6386
OCTOBER TERM, 2020

IN THE SUPREME COURT OF THE UNITED STATES
JAMES WALKER, Petitioner,
v.
WILLIAM GITTERE, et al., Respondent.

MOTION TO DELAY DISTRIBUTION OF A PETITION FOR WRIT
OF CERTIORARI

To the Honorable Elena Kagan, as Circuit Justice for the United States Court of
Appeals for the Ninth Circuit:
Pursuant to this Court’s March 19, 2020 Order, Petitioner James Walker
respectfully requests this Court delay distribution of his petition for writ of
certiorari in Walker v. Gittere, No. 20-6386, until the February 18, 2021
distribution date due to difficulties related to COVID-19.
1. James Walker filed a petition for writ of certiorari on November 16, 2020,
and it was placed on the docket on November 19, 2020. In the petition, Mr. Walker
argued his Fourteenth Amendment right to equal protection was violated when the
trial court and Nevada Supreme Court circumvented the three-step framework
2

articulated in Batson v. Kentucky, 476 U.S. 79 (1986), and failed to disallow a
racially motivated peremptory strike by the State during jury selection.
2. Respondent William Gittere filed his brief in opposition on January 13, 2021.
3. Based upon the filing date of the brief in opposition, without an extension of
time, Mr. Walker’s reply brief would need to be filed with the Court by the January
28, 2021 distribution deadline.
4. Mr. Walker respectfully requests that this Court delay distribution of his
petition for a writ of certiorari until the February 18, 2021 distribution deadline
based upon difficulties resulting from the COVID-19 pandemic. Specifically, counsel
drafting the reply is currently experiencing time constraints due to the recent,
temporary closure of his child-care provider following positive COVID-19 tests at
the facility. In addition, individuals working on Mr. Walker’s case are working
remotely and experiencing scheduling constraints due to their inability to freely
access the Federal Public Defender’s offices.
5. The later distribution date creates a twenty-one-day extension of time on the
reply brief which is reasonable given the circumstances.
6. This request comes well before the two days prior to the current distribution
date, as specified in the March 19, 2020 order.
///
///
///
3

7. Undersigned counsel contacted counsel for Respondents via e-mail on
January 19, 2021, to ascertain their position on this motion. Opposing counsel does
not oppose Mr. Walker’s request.
DATED this 19th day of January, 2021
Respectfully submitted,
RENE VALLADARES
Federal Public Defender of Nevada

/s/ Joanne L. Diamond

JOANNE L. DIAMOND*
Assistant Federal Public Defender
*Counsel of Record
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Joanne_Diamond@fd.org

/s/ Martin L. Novillo

MARTIN L. NOVILLO
Assistant Federal Public Defender
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Martin_Novillo@fd.org
Counsel for Petitioner

4

CERTIFICATE OF SERVICE
I hereby declare that on 19th day of January, 2021, I served Petitioner’s
MOTION TO DELAY DISTRIBUTION OF A PETITION FOR WRIT OF
CERTIORARI by depositing an envelope containing the Motion in the United States
mail, with first-class postage prepaid, addressed as follows:
Jonathan E. VanBoskerck
Clark County Chief Deputy District Attorney
200 Lewis Avenue
Las Vegas, NV 89155

/s/ Martin L. Novillo

MARTIN L. NOVILLO
Assistant Federal Public Defender

5

